No. 19-1029

IN THE
Supreme Court of the United States

BETHANY AUSTIN,

Petitioner,
v.

STATE OF ILLINOIS,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Illinois

CERTIFICATE OF SERVICE

I certify that on July 27, 2020, as required by
Supreme Court Rule 29.5 and the April 15, 2020
Order of this Court, that the Reply Brief of Petitioner
was served via electronic mail on all parties required
to be served and who consented to electronic service
only, pursuant to the Court’s April 15, 2020 Order.
My email was addressed to Counsel for Respondent
at:

Jane Elinor Notz
jnotz@atg.state.il.us
eserve@criminalappeals@atg.state.il.us
I declare under penalty of perjury that the foregoing
is true and correct.

 
   

ROBERT CORN-REVERE
